SEC.gov |  San Francisco District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
San Francisco District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
SAN FRANCISCO DISTRICT OFFICE
Audit No. 374
Limited Audit of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and administrative controls of the San Francisco District Office (SFDO).  The audit procedures were limited to interviewing SFDO staff, reviewing supporting documentation, and conducting limited tests of transactions.  The purpose of the audit was to provide the Commission with negative assurance that the internal controls were adequate and implemented economically, efficiently, and in compliance with Commission policies and procedures.1  The audit was performed in accordance with generally accepted government auditing standards during May 2003.
BACKGROUND
The San Francisco District Office assists the Pacific Regional Office in administering Commission programs.  In carrying out its responsibilities, the SFDO exercises a broad range of financial and administrative functions, including maintaining time and attendance records; procuring supplies and services; arranging for staff travel; maintaining an inventory of property; and recording budgeted and actual expenditures of the office.
AUDIT RESULTS
Our limited review indicated that the SFDO's controls were generally adequate and implemented economically, efficiently, and in compliance with Commission policies and procedures.  A previous OIG audit of SFDO (Audit No. 278, dated March 30, 1998) identified a material weakness, related to purchases of court reporter services.  SFDO implemented procedures to address this weakness.  However, it needs to take additional steps.  Also, we discussed some non-material findings and informal recommendations with SFDO's management.
PURCHASES OF TRANSCRIPTS
The previous OIG audit found that SFDO staff without contracting authority or approved contracts obtained transcripts.  The staff then submitted the transcript providers' invoices that were approved and paid.
In response to the previous audit recommendation, SFDO arranged to buy transcript services with its government credit card.  However, in some instances, SFDO staff without contracting authority continued to obtain transcripts and then submitted invoices for approval and payment (e.g., when the provider did not accept credit cards).
The Commission's Office of Administrative and Personnel Management (OAPM) can provide limited delegated purchasing authority.  This authority would allow the staff to buy transcript services without credit cards.
Recommendation A
The SFDO should contact OAPM to request, as appropriate, delegation of limited contracting authority to allow SFDO staff to contract for court reporter services.  Also, OAPM should tell all the Commission regional and district offices that this delegation of purchasing authority is available.
Management's Response
SFDO indicated that it would ask OAPM to give limited delegated contracting authority to certain staff.  Also, SFDO will buy transcript services with its government credit card when the provider will accept it.
1  Negative assurance means that no material internal control weaknesses came to our attention during our limited audit.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us